FEDERAL PUBLIC DEFENDER
District of Arizona
850 West Adams Street, Suite 201
Phoenix, Arizona 85007
JON M. SANDS
Federal Public Defender

602-382-2700
(Fax) 602-382-2800
1-800-758-7053

December 3, 2020
Sent via FedEx
Clerk of the Court
United States Supreme Court
1 First Street, N.E.
Washington, D.C. 20543
RE:

Israel Torres v. United States of America, No. 20-5579

Dear Clerk of the Court:
On August 27, 2020, this Court filed Petitioner Israel Torres' petition for a writ of
certiorari raising the following question:
May an individual charged with violating a law barring the possession of
firearms by felons bring an as-applied Second Amendment challenge to his
prosecution?
Pet. (Question Presented). Mr. Torres' petition cited numerous opinions demonstrating that this
question is the subject of divisions among federal circuit courts and state courts of last resort, as
well as between judges on individual appellate courts. Pet. 11-17.
After the briefing relating to Mr. Torres' petition was completed, another such opinion
was issued: The Third Circuit's divided panel opinion in Folajtar v. Attorney General, --- F.3d --, 2020 WL 6879007 (3d Cir. Nov. 24, 2020). In Folajtar, the panel members divided sharply
over the question of whether an individual's conviction for federal tax fraud could be deemed an
adequate predicate for stripping her of her Second Amendment right, with the majority accepting
a virtue-based analysis focusing on the offense's seriousness, and the dissenting judge rejecting
that model in favor of a dangerousness analysis relying heavily on then-Judge Barrett's
dissenting opinion in Kanter v. Barr, 919 F.3d 437 (7th Cir. 2019). Compare Folajtar,
F.3d at
---, 2020 WL 6879007 at *9 with id. at *13-*14, *19 (Bibas, J., dissenting) (citing Kanter, 919
F.3d at 453-64 (Barrett, J., dissenting)).

RECE_ y ED
DEC 2020
ME THE CLERK
SUPRE COURT U.S.

Clerk of the Court
United States Supreme Court
Dec. 3, 2020
Page 2

Mr. Torres respectfully submits that the divided Folajtar opinion further demonstrates the
pressing need for this Court to address the question presented in his petition. In addition, Mr.
Torres respectfully suggests that, if the Court is not inclined to grant his petition, it hold his
petition pending its resolution of a possible petition for certiorari in Folajtar (as well as
Holloway v. Attorney General, 948 F.3d 164 (3d Cir. 2020) (Pet. 28)).

Sincerely,

sl Daniel L. Kaplan

DANIEL L. KAPLAN
Assistant Federal Public Defender
850 West Adams Street, Suite 201
Phoenix, Arizona 85007
(602) 382-2700
* Counsel of Record

cc:

Jeffrey B. Wall, Acting Solicitor General c/o Charlene Goodwin
@SupremeCtBriefs@usdoj.gov
Rachel C. Hernandez, Assistant U.S. Attorney
Israel Torres, Petitioner

